No. 20-366
444444444444444444444444444444444444444444
IN THE

Supreme Court of the United States
____________________

DONALD J. TRUMP, PRESIDENT OF THE UNITED
STATES, ET AL., Appellants,
v.
NEW YORK, ET AL., Appellees.
____________________
On Appeal from the United States District Court for
the Southern District of New York
____________________
Brief Amicus Curiae of
Citizens United,
Citizens United Foundation, and
The Presidential Coalition, LLC
in Support of Appellants
____________________
MICHAEL BOOS
CITIZENS UNITED
1006 Penn. Ave., SE
Washington, DC 20003

*Counsel of Record

JEREMIAH L. MORGAN*
WILLIAM J. OLSON
ROBERT J. OLSON
HERBERT W. TITUS
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
jmorgan@lawandfreedom.com
wjo@mindspring.com
Attorneys for Amici Curiae
October 2, 2020

444444444444444444444444444444444444444444

TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . iii
INTEREST OF THE AMICI CURIAE . . . . . . . . . . . . . . . . 1
COURSE OF PROCEEDING . . . . . . . . . . . . . . . . . . . . . . 2
SUMMARY OF ARGUMENT. . . . . . . . . . . . . . . . . . . . . . 3
ARGUMENT
I.

THE LOWER COURT’S ERRONEOUS FINDING
THAT PLAINTIFFS HAVE STANDING REQUIRES
SUMMARY REVERSAL. . . . . . . . . . . . . . . . . . . . . . 6

II. THE THREE-JUDGE DISTRICT COURT
ERRONEOUSLY ASSUMED THAT THE
DECENNIAL CENSUS IS REQUIRED TO COUNT
ILLEGAL ALIENS . . . . . . . . . . . . . . . . . . . . . . . . 10
A.

The Three-Judge Court Supported Its
Decision Not from the Constitution, but
on a Practice that Developed under
Different Circumstances and by
Different Administrations . . . . . . . . . . . . 10

B.

The Constitutional and Statutory
Provisions Do Not Envision, and
Certainly Do Not Mandate, the
Counting of Illegal Aliens . . . . . . . . . . . . 13

C.

The Purpose of the Decennial Census . . 14

D.

The “Persons” of the Decennial Census . 15

ii
E.

The “People” in the Decennial Census . . 16

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

iii
TABLE OF AUTHORITIES

Page

U.S. CONSTITUTION
Article I, Section 2, Clause 1 . . . . . . . . . . . . . . 15, 17
Article I, Section 2, Clause 3 . . . . . . . . . . . . 6, 10, 13
Amendment XIV. . . . . . . . . . . . . . . . . . . . . 13, passim
STATUTES
2 U.S.C. § 2a . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
CASES
Arizonans for Official English v. Arizona, 520
U.S. 43 (1997). . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Department of Commerce v. New York, 139
S. Ct. 2551 (2019). . . . . . . . . . . . . . . . . . . . . . . . 9
Department of Commerce v. U.S. House of
Representatives, 525 U.S. 316 (1999) . . . . . . . 13
Lujan v. Defenders of Wildlife, 504 U.S. 555
(1992) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
United States v. Verdugo-Urquidez, 494 U.S.
259 (1990). . . . . . . . . . . . . . . . . . . . . . . . . . 17, 18
United States ex. rel. Turner v. Williams,
194 U.S. 279 (1904) . . . . . . . . . . . . . . . . . . . . . 18
Warth v. Seldin, 422 U.S. 490, 505 (1975) . . . . . . . 8
MISCELLANEOUS
A. Budiman, et al., “Facts on U.S. immigrants,
2018,” Pew Research Center (Aug. 20, 2020) . 11
The Federalist (G. Carey & J. McClellan, eds.:
Liberty Press 2001) . . . . . . . . . . . . . . . . . . . . . 15
The Founder’s Constitution, P. Kurland &
R. Lerner (Univ. Chi. 1987). . . . . . . . . . . . . . . 16

iv
M. O’Brien, “How Many Illegal Aliens Live in
the United States?,” FAIR (Sept. 2019) . . . . . 12
J. Story, Commentaries on the Constitution
(5th ed. 1891) . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Webster’s Dictionary of 1828 . . . . . . . . . . . . . . . . . 15

INTEREST OF THE AMICI CURIAE1
Citizens United is a non-for-profit social welfare
organization, exempt from federal income tax under
Internal Revenue Code (“IRC”) section 501(c)(4).
Citizens United Foundation is a not-for-profit
educational and legal organization, exempt from
federal income tax under IRC section 501(c)(3). The
Presidential Coalition, LLC is a IRC section 527
political organization.
Amici organizations were established, inter alia,
for the purpose of participating in the public policy
process, including conducting research, and informing
and educating the public on the proper construction of
state and federal constitutions, as well as statutes
related to the rights of citizens, and questions related
to human and civil rights secured by law.
Citizens United and Citizens United Foundation
filed an amicus brief in this Court on March 6, 2019 in
Department of Commerce, et al., v. New York, et al.,
139 S. Ct. 2551, 204 L.Ed. 2d 978 (2019).

1

It is hereby certified that counsel for Petitioners and
Respondents have consented to the filing of this brief; that counsel
of record for all parties received notice of the intention to file this
brief as soon as practicable, but due to the expedited nature of this
proceeding were not able to provide at least 10 days prior to its
filing; that no counsel for a party authored this brief in whole or
in part; and that no person other than these amici curiae, their
members, or their counsel made a monetary contribution to its
preparation or submission.

2
COURSE OF PROCEEDING
The three-judge district court granted summary
judgment to an assemblage of Democrat-controlled
state and local governmental units and proimmigration nongovernmental Plaintiffs, as well as
granting declaratory relief on their statutory claims.
New York v. Trump, 2020 U.S. Dist. LEXIS 165827 at
*130 (Sept. 10, 2020). Additionally, the court granted
a permanent injunction prohibiting all federal
government Defendants, except the President of the
United States, from implementing President Trump’s
Memorandum of July 21, 2020 which directed he
would be provided the data necessary to ensure the
nation’s Decennial Census could be employed to
exclude illegal aliens from the reapportionment of the
House of Representatives. Id. at *129.
In his July 21, 2020 Memorandum, President
Trump declared:
For the purpose of the reapportionment of
Representatives following the 2020 census, it
is the policy of the United States to exclude
from the apportionment base aliens who are
not in a lawful immigration status under the
Immigration and National Act ... to the
maximum extent feasible and consistent with
the discretion delegated to the executive
branch.
[Presidential Memorandum on
Excluding Illegal Aliens From the
Apportionment Base Following the 2020
Census, Section 2 (July 21, 2020).]

3
He explained the reasons for that policy:
Excluding these illegal aliens from the
apportionment base is more consonant with
the principles of representative democracy
underpinning our system of Government.
Affording congressional representation, and
therefore formal political influence, to States
on account of the presence within their borders
of aliens who have not followed the steps to
secure a lawful immigration status under our
laws undermines those principles. Many of
these aliens entered the country illegally in
the first place. Increasing congressional
representation based on the presence of aliens
who are not in a lawful immigration status
would also create perverse incentives
encouraging violations of Federal law. States
adopting policies that encourage illegal aliens
to enter this country and that hobble Federal
efforts to enforce the immigration laws passed
by the Congress should not be rewarded with
greater representation in the House of
Representatives. [Id.]
Lastly, President Trump directed the Secretary of
Commerce to provide him with information permitting
him to exercise his discretion to implement that policy.
See Memorandum, Section 3.
SUMMARY OF ARGUMENT
Before reaching the merits, the three-judge district
court declined to adopt plaintiffs’ claim to standing

4
based on the loss of seats in the House of
Representatives as being speculative. Id. at *15.2 But
the three-judge court then ruled plaintiffs have
standing based on an even more speculative ground —
that the mere issuance of the President’s
Memorandum could somehow chill the actual
enumeration of the people then being conducted. Id.
Even if this injury once existed, it no longer supports
standing, as the field work for the census is completed.
In considering the merits, the district court
addressed only the statutory claims, finding that the
Presidential Memorandum violated the statutory
scheme in two closely related ways. First, the court
believed the President was precluded from submitting
two sets of population numbers to the Congress —
even though that approach was required to ensure that
the House of Representatives was apportioned lawfully
reflecting “the People” (a constitutional term with a
well-established meaning discussed in Section II.E.,
infra). New York at *103. Second, the district court
ruled that the act of excluding illegal aliens violates
the requirement that the “whole number of persons in
each State” be used as the apportionment base. Id. at
*121.
These amici disagree with the court’s statutory
interpretation for the reasons set out by the

2

The court ruled that this claim “might not satisfy the
requirements of standing and ripeness,” and expressed
“considerable doubt” regarding this assertion of standing, but
ultimately concluding “we need not, and do not, decide the issue.”
Id. at *15, *59-60.

5
government. See Jurisdictional Statement at 18-23.
These amici also agree with the President’s
Memorandum that it is a valid exercise of his right to
set such a policy. See Jurisdictional Statement at 11.
However, these amici also contend that the President’s
policy was compelled by the Constitution, which
requires that the House be apportioned based on a
count of “the People” — not including persons found in
the country in defiance of its laws. Thus, while the
district court decision meets the political objectives of
the Democrat-led plaintiff state and city governments
in granting them extra seats in the House, and meets
the pro-illegal immigration objectives of the
nongovernment plaintiffs who oppose meaningful
enforcement of the nation’s laws, it does violence to the
Constitutional scheme devised by the Framers.
In making its ruling based exclusively on the
statutory claims divorced from their constitutional
contexts, the three-judge court found it unnecessary to
reach the constitutional issues. Id. at *99. Had the
court carefully evaluated the constitutional scheme
underlying the Decennial Census and the
apportionment of the House, it would have been
compelled to consider and resolve whether the
Constitution permitted the People’s House to be
apportioned based on a count that included illegal
aliens as it read the Census Act to require.
Irrespective of how the matter has been handled by
prior Administrations when the number of illegal
aliens presented a relatively minor problem, by no
means may illegal aliens be considered “inhabitants”
or part of the “the People” of the United States.

6
If the per curiam opinion of the three-judge district
court is left to stand, the federal judiciary will have not
just usurped the President’s role in conducting the
nation’s Decennial Census, but also directed that the
composition of the House of Representatives be
determined in a manner which violates Article I,
Section 2, Clause 3, as modified by Section 2 of the
Fourteenth Amendment.
Accordingly, these amici urge this Court to
summarily reverse the decision of the district court,
with instructions to dismiss the case. Alternatively,
they urge the Court to note probable jurisdiction and
set an expedited hearing schedule as requested by the
Appellants.
ARGUMENT
I.

THE LOWER COURT’S ERRONEOUS
FINDING THAT PLAINTIFFS HAVE
STANDING REQUIRES SUMMARY
REVERSAL.

Applying the standard three-element standing test
under Lujan v. Defenders of Wildlife, 504 U.S. 555
(1992), the court below determined that the plaintiffs
have standing. New York at *37-38. However, as the
late Justice Ginsburg explained in Arizonans for
Official English v. Arizona, 520 U.S. 43 (1997), “[t]he
standing Article III requires must be met by persons
seeking appellate review, just as it must be met by
persons appearing in courts of first instance.” Id. at
64.

7
The court examined both of plaintiffs’ theories of
injury offered to support standing. First, it refused to
agree with plaintiffs that the possibility of plaintiff
states losing seats in Congress based on the
Presidential Memorandum could establish injury for
standing. New York at *15. However, it then relied on
plaintiffs’ affidavits and declarations to find that the
President’s Memorandum would impose some kind of
“chilling effect,” impairing responses to the census:
[T]he record supports a conclusion that the
Presidential Memorandum has created, and is
likely to create, widespread confusion among
illegal aliens and others as to whether they
should participate in the census, a confusion
which has obvious deleterious effects on their
participation rate. [New York at *47.]
By itself, any such speculative chilling effect alone
would not constitute an injury. Rather, the injury
claimed by the plaintiffs, and accepted by the court
below, is that an undercount of certain persons could
result from that chilling effect unless nongovernmental
plaintiffs expend more resources to counteract socalled “misinformation” (id. at *51). Tellingly, the
court pointed to no such misinformation in the
Likewise, the
President’s Memorandum. 3
governmental plaintiffs claim they were forced to
expend additional resources to promote participation
3

Plaintiffs did not put on evidence of how much of the chilling
effect on census responses they claim was caused by the issuance
of the Memorandum as distinguished from the publicity they
generated to criticize the President for issuing it.

8
in the census.
The court below accepted the
assertions, concluding that chilling effect results in
“increasing costs for census outreach programs run by
NGOs and governments.” New York at *48. Even if
true, as field operations for the census have already
ended (on September 30, 2020, unless extended by
order of another court), and there is no need for
plaintiffs to continue to expend any further resources
on census outreach efforts.
In contesting standing, the Jurisdictional
Statement properly stressed that “the redressability
element requires the plaintiff to demonstrate that
‘prospective relief will remove the harm’ or that the
plaintiff ‘personally would benefit in a tangible way
from the court’s intervention.’”
Jurisdictional
Statement at 12 (citing Warth v. Seldin, 422 U.S. 490,
505, 508 (1975)). Whether the purported injury could
be remedied by the court’s order is even more
speculative than the fact of an injury. Accordingly, the
district court concluded since the relief sought
included “a declaration that the Presidential
Memorandum is unlawful and an injunction barring
any effort to implement it,” that relief “would reduce
‘to some extent’ their risk of suffering injuries relating
to the census.... A court order invalidating the
Presidential Memorandum would redress that harm
[that some people will not participate in the census] in
a straightforward manner.” Id. at *88-89.
However, even if the district court’s invalidation of
the President’s Memorandum resulted in increased
participation in the 2020 Census, that would not
remedy the plaintiffs’ claimed injury in having

9
expended additional resources that would not
otherwise have been required to be expended.
Invalidating the Memorandum will not restore funds
already expended, and there is no claim for monetary
damages. Moreover, as the field enumeration has
concluded, there are no further expenses to be
incurred.
Lastly, the court below also found that the
governmental plaintiffs will experience injury due to
degradation of the census data. New York at *67-75
(“imminent injury to their sovereign interests”). The
Government explains why much of the injury claimed
here is moot. See Jurisdictional Statement at 14-15.
To be sure, this Court’s decision last year in
Department of Commerce v. New York, 139 S. Ct. 2551
(2019), found there was an injury to states when some
percentage of noncitizen households that would not
respond to the census. Id. at 2566. Here, however, the
purported injury is much more speculative, as the
lower court admitted that “on the present record, the
Court cannot calculate with precision the number of
people that will” take steps to avoid being counted in
the census. New York at *66. It concluded that “no
doubt” (id.) that number was more than zero, but even
that is a little too vague for a federal court to be
asserting jurisdiction over an equal branch of
government.
The district court’s ruling is based on speculation
stacked upon speculation.
None of plaintiffs’
contentions establish standing for either the
governmental units or nongovernmental entities.

10
II. THE THREE-JUDGE DISTRICT COURT
ERRONEOUSLY ASSUMED THAT THE
DECENNIAL CENSUS IS REQUIRED TO
COUNT ILLEGAL ALIENS.
A. The Three-Judge Court Supported Its
Decision Not from the Constitution, but
on a Practice that Developed under
Different Circumstances and by Different
Administrations.
The court opened its decision first by reciting
without analysis the text of Article I, Section 2, Clause
3, and 2 U.S.C. § 2a(a) — and then by assuming that
both the constitutional provision and the statute
require counting illegal aliens, because that is how it
has been done in the past:
Throughout the Nation's history, the figures
used to determine the apportionment of
Congress — in the language of the current
statutes, the “total population” and the “whole
number of persons” in each State — have
included every person residing in the United
States at the time of the census, whether
citizen or non-citizen and whether living
here with legal status or without. [New
York at *10 (emphasis added).]
The record does not appear sufficient for the
district court to make such findings, but even if true,
the court, focusing on practice, diverted attention away
from the central legal issues:
What does the
Constitution require, and what authority does the

11
Census Act4 confer upon the President? The court
erroneously believed that the role of the President was
ministerial only, giving him no discretion to provide a
definition as to which persons should be considered
The
“inhabitants.”
New York at *100-01.
constitutional context for the census is discussed in
Section II.B., infra, and following, but first, note
should be taken of the very different circumstances
that existed when the “long-standing practice” relied
on by the district court developed. New York at *10.
The Pew Research Center, whose statistics are
often relied on by pro-immigrant groups, reports that
the number of what they term “unauthorized
immigrants” was quite small compared to the
population, and thus not consequential in apportioning
the House, until quite recently. For example, Pew
reports there were a relatively modest 3.5 million
“unauthorized immigrants” in 1990. That number
exploded to 8.6 million in 2000, and grew even further
to 11.4 million in 2010.5 (Another immigration source
estimated that as of last year, there were 14.3 million
illegal aliens residing in the United States — more
than four times the number estimated in 1990.6) Thus,
the existence of a “long-standing practice” of
Presidents not addressing a problem that then was de
4

The Census Act was most recently amended in 90 Stat. 2459
(Oct. 17, 1976), and is codified in Title 13 of the U.S. Code.

5

See A. Budiman, et al., “Facts on U.S. immigrants, 2018,” Pew
Research Center (Aug. 20, 2020).
6

See M. O’Brien, “How Many Illegal Aliens Live in the United
States?,” FAIR (Sept. 2019).

12
minimis provides no support for continuing that same
practice when the problem has become serious. As the
population of illegal aliens increased dramatically, and
because that population is not spread evenly over the
nation, its inclusion in the base population for the
2020 apportionment presents a significant threat of
distorting legislative power as reflected in the
distribution of House seats among the states.
A political factor is also at work. When the
number of illegal aliens first swelled in 2000, that
census was conducted by the Clinton Administration,
and the 2010 census was conducted by the Obama
Administration. It is not speculation to conclude that
neither of these Democrat Administrations had little
motivation to exclude illegal aliens from the House
apportionment as a strategic matter, as that would
grant additional House seats to states controlled by
Democrats, because the illegal alien population is
concentrated in a handful of states such as New York
and Illinois — both plaintiffs in this litigation, and
both dominated by Democrats.
Lastly, the district court selectively focused on only
one aspect of past practice, ignoring other aspects of
that practice.
President Trump’s Memorandum
described the treatment of other categories of aliens in
the United States: “Aliens who are only temporarily in
the United States, such as for business or tourism, and
certain foreign diplomatic personnel are ‘persons’ [but
they] have been excluded from the apportionment base
in past censuses.” Memorandum of July 21, 2020,
Section 1. As to this practice, the district court never
even tried to explain why under its decision foreign

13
nationals in the United States illegally should be
counted, while foreign nationals lawfully in the
United States are not.
B. The Constitutional and Statutory
Provisions Do Not Envision, and Certainly
Do Not Mandate, the Counting of Illegal
Aliens.
The constitutional provisions provide for a
decennial census for the purpose of “apportion[ing]
among the several states ... according to their
respective Numbers,” and thus vested Congress with
the power to direct an “actual Enumeration” —
counting “the whole Number of persons in each State,
excluding Indians not taxed.” Art. 1, Sec. 2, cl. 3 and
Fourteenth Amendment, Sec. 2. To that end, Congress
enacted the Census Act authorizing the Secretary of
Commerce to “take a decennial census of population as
of the first day of April of such year, [requiring] the
tabulation of total population by States.” Department
of Commerce v. U.S. House of Representatives, 525
U.S. 316, 321 (1999).
Justice Joseph Story observed that the count
should be made of “inhabitants” or “the population”:
[T]he enumeration or census of the
inhabitants of the United States shall be
taken ... in order to provide for new
apportionments of representatives, according
to the relative increase of the population of
the States.... The importance of this provision
... can scarcely be overvalued. It is the only

14
effectual means by which the relative power of
the several States could be justly represented.
[1 J. Story, Commentaries on the Constitution,
Section 644, p. 471 (5th ed. 1891) (emphasis
added).]
Illegal aliens do not fall into the categories of
“inhabitants” or “the population” as shown by the
government (see Jurisdictional Statement at 26-28),
and their being counted does not serve what the
district court admitted was the “primary purpose” of
the census — “to apportion congressional
representatives among the States ‘according to their
respective numbers.’” New York at *16.
C. The Purpose of the Decennial Census.
Constrained both by (i) the purpose that
representation of the States in the House of
Representatives be proportionate to the populations of
each State, and (ii) the requirement to determine the
numbers of persons State by State, the decennial
census was not designed to count willy-nilly “every
person residing in the United States at the time of the
census” as the district court assumes to be the
practice. New York at *10. Rather, the constitutional
text contemplates a count of the number of persons
who constitute the “population” of each State. The
district court’s position disregards the central purpose
of the decennial census, namely, to ensure that
membership in the House of Representatives is based
upon the principle of popular sovereignty that its
members from each State would truly be “chosen every

15
second year by the People of the several States.” See
Art. I, Sec. 2, cl. 1 (emphasis added).
James Madison aptly concluded in Federalist 52:
As it is essential to liberty, that the
government in general should have a common
interest with the people; so it is particularly
essential, that the branch ... should have an
immediate dependence on, and an intimate
sympathy with, the people. [The Federalist,
No. 52, p.273 (G. Carey & J. McClellan, eds.:
Liberty Press 2001) (emphasis added).]
Madison’s “common interest” test would not include
those foreign nationals unlawfully in the country.
D. The “Persons” of the Decennial Census.
The use of the word “persons” in the Fourteenth
Amendment does not support opening the floodgates to
illegal aliens. Employed in the context of the
constitutionally prescribed decennial census, “person”
should be understood contextually — not abstractly as
denoting just any human being, but relationally, with
respect to the government as an “inhabitant” or
“constituent.” “Inhabitant” connotes a person who
“dwells or resides permanently in a place,”7 in contrast
with one who is an occasional lodger or visitor. Surely
the decennial census should not be counting a
foreigner who is on a tourist visa who just happened to

7

Webster’s Dictionary of 1828.

16
be on American soil on April 1, 2020. Likewise, an
illegal alien who could be deported at any time should
not be counted. See discussion of the more than 3.2
million aliens either in custody or likely in the process
of being deported as identified by the government,
Jurisdictional Statement at 29 n.4. The decennial
census is designed to number “constituents,” denoting
that those persons who are an essential part of the
political community. The district court envisions a
census counting the lawful permanent resident and
the trespasser alike — each to be counted as one of the
population of his respective State and therefore, each
to be counted in the apportionment of members of the
House of Representatives for the next 10 years. This
is not the kind of decennial census contemplated by
the nation’s founders. See J. Madison, Census Bill,
House of Representatives 25-26, Jan.-Feb. 1790,
reprinted in 2 The Founder’s Constitution; item 19, p.
139, P. Kurland & R. Lerner (Univ. Chi. 1987).
E. The “People” in the Decennial Census.
Indeed, the language in the Fourteenth
Amendment cannot be viewed in isolation, but must be
viewed in the context of the original constitutional text
to determine if a substantive change was intended by
that Amendment’s use of the word “persons.”
Immediately after vesting “[a]ll legislative power in a
Congress,” the Constitution of 1789 establishes that:
The House of Representatives shall be
composed of members chosen every second
year by the People of the several states....
[Art. I, Sec. 2, cl. 1 (emphasis added).]

17
As Chief Justice William Rehnquist explained in
1990:
“[T]he people” seems to have been a term of
art employed in select parts of the
Constitution. The Preamble declares that the
Constitution is ordained and established by
“the People of the United States.” The
Second Amendment protects “the right of the
People to keep and bear Arms,” and the Ninth
and Tenth Amendments provide that certain
rights and powers are retained by and
reserved by “the people.” See also U.S.
Const., Amdt. 1 (“Congress shall make no law
... abridging ... the right of the people
peaceably to assemble”) (emphasis added)....
[United States v. Verdugo-Urquidez, 494 U.S.
259, 265 (1990) (emphasis added).]
Then, turning to the composition of the House, the
Chief Justice addressed Art. I, Sec. 2, cl. 1, again
italicizing the key words:
“The House of
Representatives shall be composed of Members chosen
every second year by the People of the several States
(emphasis added)” (id.). Based on all this, Chief
Justice Rehnquist concluded:
While this textual exegesis is by no means
conclusive, it suggests that “the people” ...
refers to a class of persons who are part of a
national community or who have otherwise
developed sufficient connection with this
country to be considered part of that
community. [Id. (emphasis added).]

18
And to clarify who would not be part of that
community, the Chief Justice cited United States ex.
rel. Turner v. Williams, 194 U.S. 279, 292 (1904), for
the proposition that:
(Excludable alien is not entitled to First
Amendment rights, because “he does not
become one of the people to whom these things
are secured by our Constitution by an attempt
to enter forbidden by law”). The language of
[the First, Second, Ninth, and Tenth]
Amendments contrasts with the words
“person” and “accused” in the Fifth and Sixth
Amendments.... [Verdugo-Urquidez at 265266.]
The Fourteenth Amendment did not denigrate the
concept of citizenship, but rather was designed to
clarify entitlement to national and state citizenship of
the former slave class. It would be a serious mistake
to assume that, solely based on the single use of the
word “persons,” Congress and the ratifying states
intended to apportion House seats by a count of all
persons, rather than a count of “the People.” Indeed,
even following the ratification of the Fourteenth
Amendment, the 1870 census asked about the
citizenship of each respondent, as well as whether the
respondent’s parents were foreign born, and also
inquired whether the respondent was a male citizen of
the United States 21 years old and older “whose right
to vote is denied or abridged on other grounds than
rebellion or other crime.” Id.

19
CONCLUSION
Among the principal reasons the People elected
President Trump was to return constitutional order to
our nation’s immigration policies. The district court
had no business impeding the President as he works to
carry out that mandate.
For the reasons stated above, the Court should
summarily reverse the three-judge district court and
remand with instructions to dismiss the case, or in the
alternative, the Court should note probable
jurisdiction.
Respectfully submitted,
MICHAEL BOOS
CITIZENS UNITED
1006 Penn. Ave., SE
Washington, DC 20003

JEREMIAH L. MORGAN*
WILLIAM J. OLSON
ROBERT J. OLSON
HERBERT W. TITUS
WILLIAM J. OLSON, P.C.
370 Maple Ave. W., Ste. 4
Vienna, VA 22180
(703) 356-5070
jmorgan@lawandfreedom.com

wjo@mindspring.com
Attorneys for Amici Curiae
*Counsel of Record

October 2, 2020

